Attorneys for Petitioner
John J. Bursch
Counsel of Record
Alliance Defending Freedom
440 First Street NW
Suite 600
Washington, DC 20001
jbursch@adflegal.org
(616) 450-4235
Party name: Thomas More Law Center
Derek L. Shaffer
Counsel of Record
Quinn Emanuel Urquhart & Sullivan, LLP
1300 I Street NW, Suite 900
Washington, DC 20005
derekshaffer@quinnemanuel.com
(202) 538-8000
Party name: Americans for Prosperity Foundation
Attorneys for Respondent
Aimee Athena Feinberg
Counsel of Record
California Department of Justice
1300 I Street
Sacramento, CA 95814
Aimee.Feinberg@doj.ca.gov
(916) 210-6003
Party name: Xavier Becerra, in his official capacity as the Attorney General of California

